<html>
<title> - CURRENT TERRORIST THREAT TO THE UNITED STATES</title>
<body><pre>[Senate Hearing 114-652]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-652

             CURRENT TERRORIST THREAT TO THE UNITED STATES

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                      THURSDAY, FEBRUARY 12, 2015

                               __________

      Printed for the use of the Select Committee on Intelligence
      
      
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
         
         
         
  


                                   ________
                       
                       U.S. GOVERNMENT PUBLISHING OFFICE
                
24-733 PDF                      WASHINGTON: 2017
  _____________________________________________________________________________
  For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
Internet: bookstore.gpo.gov. Phone: toll free (866) 512-1800; DC area (202) 512-1800
            Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001
                   
         
         
         
                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

                 RICHARD BURR, North Carolina, Chairman
              DIANNE FEINSTEIN, California, Vice Chairman

JAMES E. RISCH, Idaho                RON WYDEN, Oregon
DANIEL COATS, Indiana                BARBARA A. MIKULSKI, Maryland
MARCO RUBIO, Florida                 MARK R. WARNER, Virginia
SUSAN COLLINS, Maine                 MARTIN HEINRICH, New Mexico
ROY BLUNT, Missouri                  ANGUS KING, Maine
JAMES LANKFORD, Oklahoma             MAZIE K. HIRONO, Hawaii
TOM COTTON, Arkansas
                 MITCH McCONNELL, Kentucky, Ex Officio
                     HARRY REID, Nevada, Ex Officio
                    JOHN McCAIN, Arizona, Ex Officio
                  JACK REED, Rhode Island, Ex Officio
                              ----------                              
                      Chris Joyner, Staff Director
                 David Grannis, Minority Staff Director
                  Desiree Thompson Sayle, Chief Clerk
                  
                  
                  
                                CONTENTS

                               ----------                              

                           FEBRUARY 12, 2015

                           OPENING STATEMENTS

Burr, Hon. Richard, Chairman, a U.S. Senator from North Carolina.     1
Feinstein, Hon. Dianne, Vice Chairman, a U.S. Senator from 
  California.....................................................     2

                                WITNESS

Hon. Nicholas Rasmussen, Director, National Counterterrorism 
  Center.........................................................     4
    Prepared statement...........................................     9

                         SUPPLEMENTAL MATERIAL

Summary of the Reengagement of Detainees Formerly Held at 
  Guantanamo Bay, Cuba...........................................    37


 
             CURRENT TERRORIST THREAT TO THE UNITED STATES

                              ----------                              


                      THURSDAY, FEBRUARY 12, 2015

                                       U.S. Senate,
                          Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:32 p.m. in Room 
SH-216, Hart Senate Office Building, Hon. Richard Burr 
(Chairman of the Committee) presiding.
    Committee Members Present: Senators Burr, Feinstein, Risch, 
Coats, Rubio, Collins, Blunt, Lankford, Cotton, Wyden, Warner, 
and King.

   OPENING STATEMENT OF HON. RICHARD BURR, CHAIRMAN, A U.S. 
                  SENATOR FROM NORTH CAROLINA

    Chairman Burr. Good afternoon. We're going to get the 
hearing started. I want to welcome Director Nick Rasmussen from 
the National Counterterrorism Center. Nick, we've invited you 
here today in an open session. I think there were some of the 
news outlets, Vice Chair, that said this would never happen 
with me being Chairman, that everything would be closed, and I 
just want to point out we are having an open session.
    This is to provide the Senate and the American people with 
an update on the current threat from terrorism. The Committee 
remains concerned about the expanding, evolving nature of this 
threat and the challenges facing the intelligence community and 
the evolving nature of the threat.
    This is the first of what I hope will be a number of open 
hearings that should give the intelligence community an 
opportunity to better inform the public of its current efforts 
and challenges. As Mr. Rasmussen and I have talked about: 
Here's what we do; here's sort of how we do it; as much as we 
can tell; but more importantly, here's why the American people 
should understand why this is important to them. It's about 
their defense.
    Given the nature of the material we're here discussing and 
the fact that this is an open hearing, I want to remind 
everyone to use extreme caution to protect intelligence sources 
and methods. While this is an excellent venue to engage Nick 
Rasmussen, I reserve the right to immediately suspend any 
questions or comments that may be sensitive in nature or whose 
response could disclose classified information.
    The Congress is currently debating several matters that 
impact our counterterrorism efforts, including an AUMF on the 
conflict in Iraq and Syria. As we take up these issues, I want 
to make sure that our members and the public understand the 
serious and credible threat that many of these groups present 
to the security of the United States and to our allies.
    In addition to addressing the threat itself, I hope you'll 
discuss the impact that media leaks, encryption, and other 
collection challenges are having on your ability to detect and 
to thwart terrorist attacks.
    Nick, I'm afraid that your job is getting harder at a time 
when we can least afford it. I've spent more than ten years as 
a member of the House and Senate Intelligence Committee, as has 
the Vice Chairman, and have watched closely the threat 
environment as it's evolved since the attacks of 9-11.
    The threats we face today are much greater than those we 
faced since 2001. Al-Qaeda in 2001 was estimated to have less 
than a thousand members. The group was relatively 
geographically contained, and plots against our interests were 
infrequent by today's standards. Today we face groups like the 
Islamic State of Iraq and the Levant, which is often described 
as a terrorist army, with memberships estimated to be in the 
tens of thousands.
    We face terrorist safe havens spanning North Africa, the 
Middle East, and South Asia and are confronted by a host of 
different plots almost daily. We have evacuated our embassies 
in Libya and Yemen due to threats against our personnel, and 
terrorist groups are becoming more creative, threatening our 
citizens and allies with non-metallic IED's and massive truck 
bombs; in addition, their mastery in the use of the Internet 
and social media to disseminate propaganda, to recruit fighters 
that often already have access to western countries, like we 
have seen in Europe, Canada, and even in New York.
    One of the biggest lessons we've learned from the September 
11th attacks was that we cannot give terrorists a sanctuary 
from which to plan attacks against us. Arguably, ISIL now has 
control of the largest territory ever held by a terrorist 
group. This safe haven provides ISIL and other extremists with 
the time and space they need to train fighters and to plan 
operations. It also has provided them with the access to 
weapons and a network that can be used to support external 
operations.
    We knew about the threat we faced from al-Qaeda prior to 9-
11, but we failed to act. I just hope we don't make the same 
mistake again.
    Nick, I once again thank you. I welcome you here, and I now 
turn it over to the distinguished Vice Chairman.

 OPENING STATEMENT OF HON. DIANNE FEINSTEIN, VICE CHAIRMAN, A 
                  U.S. SENATOR FROM CALIFORNIA

    Vice Chairman Feinstein. Thanks very much, Mr. Chairman.
    Director Rasmussen, welcome. Let me say that I've been 
reading a number of your intelligence products, and 
particularly on threats yesterday. I think your agency is doing 
a very good job. I think you're outwardly bound and just the 
way we think it ought to be. So I want to thank you for that 
good work.
    Today provides us an opportunity for the Committee, as the 
Chairman has said, to discuss in unclassified terms the 
terrorist threats to the United States and to the rest of the 
world. This is really particularly important, that the American 
public understand these threats, because they provide the 
necessary context for a number of policy decisions that the 
United States Government is facing and that we have to help 
make. These threats affect whether we authorize the use of 
force against ISIL, the need for our continued military 
deployments to counter terrorism efforts, and the need to 
reauthorize intelligence tools necessary to keep our country 
safe.
    I believe that the terrorist threat facing the United 
States is as diverse and serious as at any time in our history. 
I have never seen more serious threats. These come from both 
inside our country and outside. More so than any other 
terrorist organizations we've seen in the past, ISIL is seeking 
to radicalize followers around the world and inspire attacks in 
our homeland.
    They are extraordinarily visible. If you look at AQAP, just 
as much a danger to us, but much more invisible. The uniforms 
of ISIL, their equipment, their taking over the city, the 
children that have been beheaded, the Christians who have been 
sacrificed, the Iraqi Army that's been--700 frog-walked and 
then shot down in cold blood, all of this has been on 
television. So Americans have come to know the threat that ISIL 
is.
    The guidance from ISIL to potential terrorists is clear. It 
wants westerners to come to Syria and to Iraq to fight. ISIL 
instructs them how to carry out attacks at home, and that's 
what we're up against. There are more than 100 Americans who 
have either traveled to Syria or attempted to travel there. 
There are 20,000 foreign fighters who have traveled to Syria 
and who will return home. At least 3,400 of them are from 
Western Europe, and that includes visa waiver countries, where 
they are a plane ticket away from the United States.
    What we don't know is how many people are inside the United 
States following ISIL on the news and on social media and who 
are becoming inspired to carry out their own attacks.
    Separately, al-Qaeda remains focused on conducting attacks 
against our homeland. While AQ in the ungoverned areas of 
Pakistan may be as weak as it has been in many years, al-Qaeda 
in the Arabia Peninsula, or AQAP, still poses a clear threat. 
The group is enjoying a safe haven in Yemen with the Houthi 
overrun of the government there.
    Remember, AQAP was behind the attacks against Charlie 
Hebdo. The group has already attempted to send non-metallic and 
essentially undetectable bombs into our country on four 
occasions, beginning with the Christmas Day 2009 Abdulmutallab 
``Underwear Bomber.'' They do have a bomb that can go through a 
magnetometer. And AQ has published step by step directions for 
building that bomb in the latest ``Inspire'' magazine.
    Our efforts to confront AQAP are significantly diminished 
with the removal of President Hadi of Yemen. The Houthis may 
have no love for AQAP, but over time the Yemeni government had 
become a strong counterterrorism partner that we no longer 
have. Closing our embassy in Sanaa was the right choice, but 
the instability in Yemen presents AQAP with new freedom to roam 
and kill.
    Elsewhere, there is a power vacuum in Libya, maybe even 
civil war. In much of northwest Africa groups are using that 
territory for a safe haven. I could go on and on.
    But let me just conclude with one remark that I hope 
Director Rasmussen will address. On June 1, three provisions of 
the Foreign Intelligence Surveillance Act, which we call 
``FISA,'' will expire. They are the business records authority, 
the roving wiretap, and the lone wolf. If these authorities 
expire, the intelligence community will lose key tools to 
identify terrorist groups and to protect the homeland. This 
includes NSA's phone metadata program as well as the authority 
for domestic FBI investigations, but also other important 
authorities.
    So I look forward to your testimony, Director Rasmussen, 
and again I thank you for the excellent work that you are 
doing.
    Thank you, Mr. Chairman.
    Chairman Burr. Thank you, Vice Chairman.
    Let me say for the purposes of members, it's my intent once 
the testimony has been received that we will go to five-minute 
questions based upon the order of attendance. Hopefully, that 
has been shared with everybody.
    We will at this time turn to the Director for as much time 
as your testimony might take, Nick.

   STATEMENT OF HON. NICHOLAS RASMUSSEN, DIRECTOR, NATIONAL 
                    COUNTERTERRORISM CENTER

    Director Rasmussen. Thank you, Mr. Chairman, Madam Vice 
Chairman, and members of the Committee. I have submitted for 
the record a much longer statement that has gone around the 
world and discussed in some depth the threat picture as we see 
it.
    Thank you first for inviting me today to discuss the 
terrorist threat the United States is facing worldwide and also 
to discuss NCTC's particular efforts to counter that threat. As 
both the Chairman and Vice Chairman have noted, today's threat 
environment is increasingly diverse and dynamic, as is the wide 
array of terrorist actors that is driving this environment. 
Those actors are located across Africa, Asia, the Middle East, 
and they can increasingly reach into the West, even into the 
United States.
    The emergence of Iraq and Syria as extremist battlefields 
and ISIL's related expansion in reach has brought about changes 
in that terrorism landscape. The emergence of new groups in the 
wake of the Arab uprisings since 2011 has also altered the 
threat picture, as most of those groups are focused more on 
achieving local gains in their regions.
    We're also experiencing a new level of specialization and 
fragmentation within that larger terrorism landscape. We 
believe we might be entering into an era in which the 
centralized leadership of terrorist groups matters less than it 
did previously. We may be entering a time in which group 
affiliation and identity is more fluid and extremist narratives 
are more focused on a wider range of alleged grievances and 
enemies. As Paris showed us, this may also be a time in which 
personal connections among individual terrorists may be more 
relevant to their plotting than their individual group 
affiliation or identity.
    Now, even in this dynamic and increasingly complex threat 
environment, I still believe it is possible to differentiate to 
some degree the threat we are facing in the U.S. and in the 
West from the threat we are seeing in the regions where many of 
our terrorist adversaries are located. As we look at that 
global terrorism picture, we are trying to be careful not to 
paint that picture with a single broad brush, and I'll try to 
explain.
    In the United States and in the West--and by ``the West'' I 
traditionally mean Western Europe--the threat of catastrophic 
attack has been significantly reduced as we and our partners 
have been able to apply consistent counterterrorism pressure to 
some of the most dangerous groups that we face. Now, clearly 
sustaining that counterterrorism pressure and the key elements 
of that counterterrorism pressure in those key places around 
the world is an essential condition to preventing the 
reemergence of some of the more complex threats that would aim 
to have catastrophic impacts on our homeland.
    But in this current environment, our assessment is that we 
face a much greater, more frequent recurring threat from lone 
offenders and probably loose networks of individuals. Measured 
in terms of frequency and numbers, it is attacks from those 
sources that are increasingly the most noteworthy feature of 
the terrorism landscape.
    Since May of last year, 10 of the 11 attacks we've seen in 
the West were in fact conducted by these individual extremists, 
two here in the United States and the nine others occurring in 
Europe, Canada, and Australia. Now, the majority of these 
attacks, these 11 attacks, look more like what we would expect 
from random acts of violence rather than the effort at large-
scale destruction that we saw in terrorist plotting immediately 
after 9-11.
    In going forward, we believe that both individuals and 
smaller networks will try to mount similar attacks, to try to 
capitalize on and build momentum from the media coverage that 
these kinds of attacks generate.
    Now, it's also important to note that what I would call 
these smaller-scale or lower-level attacks still can cause 
amazingly tragic human suffering. They can clearly generate 
fear among local populations, and they clearly have profound 
political effects on the societies in which these attacks come. 
And I'm in no way seeking to minimize the impact that such 
attacks can occur.
    Furthermore, our increasing focus on these smaller-scale, 
more-frequent, lower-level attacks in the West should not in 
any way suggest that we're no longer concerned with the ability 
of established terrorist groups and even some individuals to 
target western aviation, which would certainly constitute a 
large-scale and potentially catastrophic attack. Mitigating 
that threat to aviation remains at the very top of our priority 
list in terms of disruption efforts.
    It also remains true that we still face moderate and small-
scale threats from groups that are more structured and 
cohesive, like traditionally al-Qaeda was and some of the 
traditional al-Qaeda affiliates and allies. And although the 
number of groups posing that truly transnational threat is 
somewhat smaller and our efforts to place pressure on them have 
met with some success, it's important to remember that these 
groups are persistent and they're patient with their desires 
and their plans to strike the homeland.
    Now, in contrast to the threat we face here at home and in 
western capitals, our allies and partners in Africa, Asia, and 
the Middle East are facing in some ways a much different 
threat. As you know, some of the most ambitious and active 
terrorist groups are located in countries that are continuing 
to work through the effects of the Arab uprisings in recent 
years, places like Egypt, Iraq, Libya, Syria, and Yemen. Other 
terrorist groups are very active in countries undergoing 
insurgencies, places like Afghanistan, Pakistan, Nigeria, 
Somalia, Egypt, Iraq, Syria, and again Yemen. In all of these 
countries, terrorist groups are trying to displace weak 
governments or to make significant territorial gains.
    In other countries, terrorists are contributing to 
population displacements that are affecting millions of people 
on a huge scale. This is happening in places like Iraq, Syria, 
Nigeria, and Afghanistan. Some of these terrorist groups are 
also responsible for stoking sectarian tension and contributing 
to the proliferation of Sunni on Shia violence.
    Now, amidst all of this insecurity, violence, and political 
instability around the world, terrorists are carrying out ever 
more violent attacks much more frequently in these countries 
and often on a much greater scale than what we've seen recently 
conducted here in the West. In the last year alone, we've 
assessed that there have been hundreds of attacks in these 
countries that have, unfortunately, caused thousands of deaths. 
Just last month, as the world focused its attention on Paris 
and the attacks there, at the same time, as this Committee well 
knows, attacks on local populations by Boko Haram in Nigeria, 
AQAP in Yemen, were taking place on a significantly larger 
scale.
    Now, despite the fact that I've tried in some small way to 
differentiate between the threat environment in the West and 
the threat environment we see in Africa, the Middle East, and 
South Asia, there is one phenomenon which draws those two 
separate threat pictures tightly together. That phenomenon is 
the continued flow of foreign fighters to Syria, and 
particularly those fighters who come from western countries. 
While the majority of the roughly 20,000 foreign fighters have 
in fact come from the Middle East and from North Africa, more 
than 3,400 have, we assess, come from western countries.
    Now, at NCTC we're working to advance a broad effort across 
our Center to track foreign fighters, working very closely with 
the rest of the intelligence community and with our partners 
around the world. NCTC compiles information on known and 
suspected terrorists who travel to Syria, and we house that 
data in our Terrorist Identities Datamart Environment, known as 
``TIDE.'' That effort has created a valuable forum for 
identifying, tracking, and sharing information on known or 
suspected terrorists with key stakeholders, and that includes 
the law enforcement community, the counterterrorism community, 
the screening, and the watch-listing communities.
    Also, this TIDE effort has also directly helped to resolve 
inconclusive identity information, enhance TIDE records with 
more information, and, most importantly, upgrade watch list 
status for several hundred known or suspected terrorists.
    NCTC officers are also working to fully identify foreign 
fighters who potentially have access or connections to 
individuals in the homeland so that they, too, can be watch 
listed.
    Now, to do all this my officers are using NCTC's unique 
access to a wide range of IC and law enforcement information, 
wider than anywhere else in the IC. This access includes our 
own data holdings as well as our embedded officers from ten 
other intelligence organizations.
    Now, to prevent individuals from traveling to Syria in the 
first place, my officers are also working to diminish the 
appeal of terrorism. In partnership with the Department of 
Justice, with Department of Homeland Security, and with the 
FBI, we have helped develop tools to counter violent terrorism 
and raise awareness among our law enforcement and community 
leaders across the country. We have tried to tailor these tools 
to address foreign fighter recruitment, particularly in this 
updated ISIL context, and we have received a significant amount 
of positive feedback from the communities with whom we have 
worked. There's definitely a demand signal for more of this 
across the country.
    Now, despite these concerted efforts, the nature of today's 
threat is, as we discussed at the beginning and was evident in 
both the Chairman and the Vice Chairman's statements, the 
nature of today's threat is challenging significantly our 
ability to identify and disrupt terrorist plots. This is coming 
at a time when we are, unfortunately, losing capability.
    Today the terrorist-related communications of our terrorist 
adversaries are increasingly intermingled with communications 
that are not relevant to our terrorism work, but they are not 
separate and easily identified streams of information. Signals 
intelligence is increasingly important in denied areas around 
the world where we face challenges with getting information 
from human sources. It's difficult for us to operate in places 
like Syria and Libya and increasingly now in Yemen, and 
terrorist groups are watchful for the possibility that they 
could be infiltrated by human sources.
    Due to the Snowden leaks and other disclosures, terrorists 
also have a greater understanding of how we seek to conduct 
surveillance, including our methods, our tactics, and the scope 
and scale of our efforts. They have altered the ways in which 
they communicate, and this has led to a decrease in collection. 
We have specific examples, which I believe we have shared with 
the Committee and the Committee staff in classified session, 
specific examples of terrorists who have adopted greater 
security measures, such as using various new types of 
encryption, terrorists who have dropped or changed email 
addresses, and terrorists who have simply stopped communicating 
in ways they had before, in part because they understand how we 
collect.
    Leaks have also driven a wedge between the government and 
providers and technology companies. Some companies that were 
formerly recognizing that protecting the Nation was a valuable 
and important public service now feel compelled to question or 
oppose our efforts.
    Now, these challenges that I just described in the 
collection environment--and they go to the question you raised, 
Mr. Chairman--all of this places a huge, huge premium on 
information-sharing among governments who all face this 
challenge. This information-sharing gives us the best chance to 
identify potential lone actors and loose networks of the sort 
that are carrying out the most frequent attacks.
    Now, while the sheer number of foreign fighters that I 
talked about earlier threatens to overwhelm the law enforcement 
and intelligence capabilities of some of our key partners 
around the world, the problem has actually spurred information-
sharing to a level that we have rarely seen, if ever, and 
that's a positive development. So I would argue that this is 
one tiny bit of good news embedded within a threat picture and 
a foreign fighter problem that is of increasing concern, as I 
hope I have made clear.
    I'll stop there now for now, Mr. Chairman, Madam Vice 
Chairman, and I look forward to your questions and the rest of 
the Committee. Thank you.
    [The prepared statement of Director Rasmussen follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        
    Chairman Burr. Director, thank you very much.
    I'll restate: We'll go to five-minute questions based upon 
the order of attendance, and that's Burr, Feinstein, Wyden, 
Warner, Cotton, Coats, Collins, Blunt, Lankford, and Risch.
    Mr. Director, I'm going to go right to the issue that the 
Vice Chair raised with you, and that's the three FISA 
provisions that are set to expire the 1st of June, and 
specifically: If they were to--if we allowed those to expire, 
what would be the impact on the NCTC's ability to discover and 
thwart terrorist attacks here at home?
    Director Rasmussen. As I know the President and the DNI 
have stated, Director of National Intelligence have stated, it 
is essential that we retain these important capabilities. The 
ability to have insight into what our adversaries are doing, 
the connections they may have both internationally and 
potentially into the homeland, is an essential part of the 
business of identifying individual terrorists and then building 
out the picture of the networks in which terrorists operate.
    So fundamentally, reauthorization is something that we are 
counting on in the intelligence community as an important part 
of our work.
    Chairman Burr. Director, earlier this week the 
Administration announced the creation of a Cyber Threat 
Intelligence Integration Center, or they referred to it as 
CTIIC, within the ODNI. The national center will reportedly be 
modeled after NCTC and the National Counterproliferation 
Center, which have struggled under the ODNI management. I'm 
hesitant to authorize the creation of a new center until some 
of these lingering management challenges can be resolved, not 
least of which is NCTC's inability to fully hire.
    Can you assure the Committee that NCTC will be able to fill 
the majority of your open vacancies by the end of the year?
    Director Rasmussen. I believe I can, Mr. Chairman. I'm 
happy to report that since, I would say, over the last five, 
six months we have taken significant strides forward in 
addressing just that concern and problem, not only improving 
our ability to hire analysts and officers from outside of 
government, outside the intelligence community, to bring new 
blood into our center, but also increasing the level and the 
inflow of detailees, officers detailed from other intelligence 
community entities, into NCTC, which, as you well know, Mr. 
Chairman, that's part of the lifeblood of NCTC, having that 
contribution of officers from FBI and from CIA, from NSA, from 
the Defense Department, DIA, every member of the community.
    We're making I think tremendous progress. If we had had 
this discussion a year ago, I would have given you a much more 
cautious and hedged response because I wasn't necessarily 
confident that we could get to where we needed to be. But just 
in the last few months, I've had tremendously productive 
engagements with FBI, with CIA, to get our numbers with FBI and 
CIA to the levels we need them to be. So I'm pretty confident I 
can give you the assurance that you're looking for, Mr. 
Chairman.
    Chairman Burr. Nick, in many ways the threat from terrorism 
is growing, it's not declining. The number of threat streams 
you are facing is shocking, and your ability to collect 
intelligence on those threats is waning. As the principal 
adviser to the President on counterterrorism, are you concerned 
about the trend and the impact it's having on our security?
    Director Rasmussen. In my statement I certainly talked 
about the wider array, the more diverse array of threats and 
terrorist actors that we're seeing around the globe. Clearly, 
that puts increasing pressure on our capacity to respond and to 
react in all of those different places, to develop effective 
strategies in all of those places.
    As we've talked about in closed session as well, it's not 
always possible for the United States to transform the 
environment in some of these areas where the terrorism threat 
is growing. So we have to develop an approach that allows us to 
mitigate and disrupt the terrorist threat networks that are 
most particularly aiming at U.S. interests, while also looking 
to see if there are ways in which we can over time develop 
stronger partnerships with countries in particular regions, so 
that we don't own the burden ourselves of doing that mitigating 
and disrupting.
    But unfortunately, while you are doing that long-term work 
to establish a more sustainable counterterrorism framework with 
our partners, you have to deal with, as you said, Mr. Chairman, 
every day a constant inflow of new terrorism-related threats. 
So you're trying to keep up with every one of those most recent 
threats at the same time you're trying to build a more 
sustainable CT partnership, network of CT partnerships around 
the world.
    So doing that long-term work while we're also managing the 
day to day is increasingly a challenge, I will admit.
    Chairman Burr. Thank you, Mr. Director.
    Vice Chairman.
    Vice Chairman Feinstein. Thanks, Mr. Chairman.
    Mr. Rasmussen, I think last year when we had our worldwide 
threat hearing--this is a little different than that--the 
Khorasan Group was sort of put out there as a group that could 
really be effective in launching an attack against the United 
States. As I'm reading your written remarks, particularly on 
page 8, you talk about two highly capable AQIM offshoots, 
Belmokhtar's al-Mulathamun Battalion and Tawhid wal-Jihad in 
West Africa, merging to form the violent extremist group al-
Murabitun, which is one that we really haven't heard of before.
    How big is this? That's the first part of the question. 
Secondly, how do you rank the groups and their threats toward 
the homeland? Which one should we be the most wary of?
    Director Rasmussen. Let me try to bite that off in a couple 
different chunks, Madam Vice Chair. We did point in our 
statement this year to the emergence of this group in North 
Africa, which is an offshoot of a group we've long known and 
which you've long known about, al-Qaeda in the Islamic Maghreb. 
But one of the offshoots of that group that grew out of a 
leadership dispute and internal fights about direction is a 
group that we know as the al-Murabitun Battalion, which 
includes known individuals with links to al-Qaeda, but again, 
as I've said, they have engaged in a little bit of internal 
feuding that has put them into separate organizations, at least 
from the way we look at it.
    We look at that grouping as a pretty significant threat to 
our interests in and across North Africa. As far as an ability 
to project a threat potentially to the homeland, I would 
describe that as more potential than actual at this point. But 
they certainly have taken note of what has happened in Western 
Europe, and I would over time be concerned about the ability of 
groups like this in North Africa having the ability to project 
into Europe.
    Of course, I consider attacks that could happen in Europe 
potentially as attacks that could involve significant U.S. 
interests. We have significant diplomatic, business, and other 
presences in most Western European capitals. So I don't take 
for granted that Americans would not be a part of any attack 
that took place in Europe.
    To your question on the Khorasan Group, as we've talked 
about before, that is a group, a loose network of individuals 
affiliated, long a sense of affiliation with core al-Qaeda in 
the tribal areas of Pakistan, and we've long worried about 
their ability to potentially not only engage and impact the 
fighting in Syria, which they're engaged in doing, but also, 
while they're engaged in that activity, also looking for 
opportunities to engage in external operations against U.S. 
interests, western interests, into Europe and ultimately even 
the homeland.
    There's not much more I can say about that in this session, 
as you well know. But this is among the very, very highest 
counterterrorism priorities for the intelligence community, is 
to try to understand this network with more granularity, with 
more specificity, and to develop disruption options to go after 
it.
    Vice Chairman Feinstein. Is AQAP still number one in terms 
of--I'm talking about the homeland now.
    Director Rasmussen. I guess I try to avoid number one, 
number two, number three, because as soon as you say that 
someone who isn't watching the picture as closely as you are 
and as we are says: Well, your number three must not be getting 
the right attention. And they'd be right to think that, but I 
think they'd also be missing something.
    As I said in my statement, even though what we're seeing 
more frequently in the West are these low-level attacks 
conducted by individuals who aren't networked necessarily, we 
still are absolutely fixated and focused on AQAP's efforts to 
develop an aviation attack against the United States, for all 
of the reasons that were mentioned in both the Chairman and the 
Vice Chairman's statements: the attempt to propagate the recipe 
for putting explosives on an airplane; the continued effort, 
even amidst all the fighting in Yemen for AQAP, to mount an 
external operation. That is all still very much at the top of 
our counterterrorism priority list from an analytical 
perspective, from a collection perspective, and from a 
disruption perspective.
    So when something like ISIL seizes--or rises to the 
forefront of concern, we don't have the luxury of downgrading 
our effort, our level of effort against some other threat 
stream or set of terrorism actors that we already had at the 
top of our list.
    I hope that responds.
    Vice Chairman Feinstein. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Director, it's great to see you again. I think you've done 
a good job of laying out counterterror challenges. In my years 
on the Committee, we've seen the threats move from al-Qaeda in 
Afghanistan to insurgents in Iraq to al-Qaeda in the Arabian 
Peninsula. So these are very real threats, very real threats.
    The question then becomes, how do we focus on ways to deal 
with these threats, rather than in effect use approaches that 
waste time and resources? We've got to focus on approaches that 
work.
    The bulk collection, the bulk phone records collection that 
has been widely debated, has been described by the President's 
review group--and I'll just quote here--as ``information that 
could readily have been obtained in a timely manner using 
conventional Section 215 orders.'' So these are all public 
documents, public reports. Mike Morell, for example, a veteran 
of the CIA, supported this document.
    My question to you is, first: If Congress passes the 
legislation ending bulk collection, would intelligence agencies 
still be able to collect the information you and they need to 
protect our country against terrorist operations?
    Director Rasmussen. I look at this in terms of, as the 
President said last year, making sure that we're in a position 
to preserve the capability that that bulk collection gave us. 
That's why I support, as did the Director of National 
Intelligence, the legislation that would transition the program 
to one that would preserve that capability without requiring 
the Federal Government to hold the records in the way that it 
had previously.
    Senator Wyden. So you're proposing that we end the bulk 
collection program, but in effect the phone companies can still 
keep their recordkeeping practices, right?
    Director Rasmussen. I'm comfortable that that capability 
would--that step would preserve our capability if that became--
--
    Senator Wyden. Very good. One other question. Mr. Director, 
my understanding is--and it would be very helpful here--that 
there are some questions about whether the Office of the 
Director of National Intelligence has provided you at the 
National Counterterrorism Center with a copy of the full 
classified version of the Committee's report on the use of 
torture. Have they provided you that report?
    Director Rasmussen. A select number of my officers had 
access, I'm certain, to the executive summary. I'd have to get 
back to you----
    Senator Wyden. Have you seen it?
    Director Rasmussen. I've seen portions of it, Senator.
    Senator Wyden. Have you asked for a copy of the report?
    Director Rasmussen. I have not personally asked for a copy 
of it, no. I asked that I be allowed access to it in order that 
we perform the role that we did perform at the tail end of last 
year when we were asked to participate in the effort to develop 
threat assessments.
    Senator Wyden. Well, there are some additional details in 
the classified version that I think are relevant. So I hope 
that you will ask for a copy and review it. But I look forward 
to working with you. I think it is helpful to have on record 
that if the Congress passes the legislation ending bulk 
collection you and the other intelligence agencies can go 
forward doing the important work to deal with the threats to 
this country. They are very real. I'm interested in working 
with you on the matter of the report as well. I hope that you 
will ask for a copy of the report and review it.
    Thank you, Mr. Chairman.
    Director Rasmussen. Thank you, Senator.
    Chairman Burr. Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    Mr. Rasmussen, nice to see you again. Thank you for your 
great service.
    I do think I want to make a brief comment on Senator 
Wyden's comment. We'll have a spirited debate, I think, on that 
FISA issue. I do think there are challenges, as we've discussed 
before, both privacy and security-related, around holding data 
at the telcos, and that'll be the subject of, I know, ongoing 
conversations.
    I want to raise--ISIL-AQAP has been the focus of most of 
your testimony, but I'd like to raise one other area I think in 
your testimony you've touched on, but I'd love to hear before 
the group. When we think back to last year in April, when we 
were all at that moment astonished by the actions of Boko Haram 
in Nigeria, seizing 300 girls from a school, 200 of which I 
believe are still missing, and subsequent actions of the United 
States in sending troops and advisers to that region.
    We've seen since that time about a million and a half 
people displaced, north of 3,000 killed in 2014, and a 
coalition arise. I think just recently Niger joined with 
Nigeria, Benin, Chad, and Cameroon for an 8,700-person force.
    Could you give us an assessment whether these countries 
have the capability, whether the tide is swaying? Obviously, 
Nigeria has postponed their elections. The first question would 
be: Can they take on this threat of Boko Haram? It's remarkable 
that, with the atrocities they commit, they're still pushed off 
the front page because of the extraordinary atrocities of ISIL 
and others. And what type of potential threat that poses beyond 
that immediate region?
    Director Rasmussen. Thank you, Senator. I think you're on 
to something with the question, by raising the question of 
regional partners. There's no question but that Nigeria faces 
significant, serious challenges to mounting on its own a 
response against Boko Haram. Even in the most stable political 
environment, they would face those challenges. As the Committee 
well knows, right now Nigeria is in the midst of a potential 
political transition that will test even further their ability 
to mount a coherent response among their political, 
intelligence, and military communities.
    So one solution to that is to try to get regional partners, 
as you described, more involved: Niger, Cameroon, other 
partners. They are increasingly stepping up to that challenge 
with their admittedly limited resources, but their shared sense 
of threat.
    I think we will be in a position to try to enable these 
partners, to try to develop a regional approach against Boko 
Haram, and doing what we can, principally through advising and 
assisting and in providing intelligence where it's appropriate. 
I think that can increase their effectiveness.
    I think it remains to be seen--it certainly isn't the case 
yet that the tide has been turned against Boko Haram, and it 
remains to be seen if the regional partners can in concert turn 
that tide. I would not want to get out ahead of that in terms 
of predicting anything. This is a part of the world where we do 
not have the largest resource footprint, so we do what we can. 
But we may have to reevaluate Boko Haram's trajectory over time 
if we see that the regional partners are overmatched.
    Senator Warner. Do you see any evidence of--there has been 
some reported evidence of Boko Haram's reaching out to other 
groups in terms of network. Could you comment on that?
    Director Rasmussen. Exactly. The increased 
intercommunication between Boko Haram and other terrorist 
groups in the northern part, northwestern part of Africa, and 
even with ISIL, all of that just adds to the picture of an 
interconnected terrorist network with the ability to share 
resources, personnel, expertise, and tradecraft in a way that 
serves as a multiplier for their own capabilities, and that's a 
disturbing trend.
    Senator Warner. Mr. Chairman, I think this is an area that 
we need to keep our eye on as well. Obviously, there's huge 
challenges. Thank you.
    Chairman Burr. Thank you, Senator Warner.
    Senator Coats.
    Senator Coats. Mr. Chairman, thank you.
    In response to the questions that Senator Wyden raised, you 
indicated that you and the Director of National Intelligence 
have assessed that ending the bulk collection program and 
transferring it to communication companies would not impede in 
any way doing the necessary tracking and usage of that to reach 
the information that you want. But since that hasn't been done 
and since we haven't really laid out a procedure, the 
procedures how we're going to do that, and we don't know 
exactly how it's going to be collected, and so forth and so on 
with a much shorter period of time of holding that information, 
how can you be so certain that this is not going to degrade in 
any way your ability to access that information?
    Director Rasmussen. I guess I would say I can't say 
anything with complete certainty, Senator. But looking at the 
provisions as we understood them, we believe the legislation 
would have maintained the essential capability that we were 
requiring that we maintain.
    Senator Coats. Well, the legislation calls for a shortened 
period of time for holding that information. We've seen in 
Paris and some other instances where we need to go deeper than 
that in order to determine the connections and the network that 
we need to assess.
    Director Rasmussen. I certainly agree. But----
    Senator Coats. Well then, how can you say with assurance 
that ending that bulk collection is going to not leave you 
short-handed in terms of what you need to assess?
    Director Rasmussen. I can't predict in the future exactly 
how, what information requirements we would have.
    Senator Coats. Well then, how can you come to a conclusion? 
Don't you leave a little, well, we're not sure, Senator, 
exactly how this is going to work, so we can't guarantee that 
it'll give us the same access as we have under the bulk 
collection program?
    Director Rasmussen. Again, I look at this in terms of 
capability, and my understanding of the legislation is it would 
have provided us with that essential capability. I'm a little 
bit burdened here because as NCTC Director, I follow in the 
footsteps of two previous NCTC Directors, Mike Leiter and Matt 
Olsen, who were distinguished national security lawyers, who 
lived this architecture in ways that I haven't. So I'm less in 
a direct position to speak on exactly how these programs work 
in the same way that my predecessors were.
    Senator Coats. That's why I raised the question in my mind 
about your answer to Senator Wyden, who I think took that as a 
definitive yes, the DNI thinks this is fine and NCTC Director 
thinks it's fine, and therefore why in the world would we ever 
question it? As you know, there's a difference of opinion in 
the intelligence community among the different agencies as to 
whether or not this is the right thing to do.
    Director Rasmussen. I understand that, and that's why I'm 
relying on my experts, who have assured me that preservation of 
this capability gives us what we need. As with anything, it 
certainly involved giving and taking, give and take on 
particular provisions. I'd be happy to talk about it further 
with you in closed session or I can come to you with----
    Senator Coats. I understand, and I think we should do that, 
Mr. Chairman, because I think there's still some major 
questions that need to be resolved here.
    In the remaining time that I have, do you--through your 
agency or somewhere in the IC community, what is the appeal to 
the thousands of westerners that fall prey to the appeal of 
engaging in this depravity, which they obviously are all aware 
of and are so attracted to this? I'm trying to get to the 
source, get my head around the fact that, how could someone who 
has perfect capability, seeing exactly what they're walking 
into, think that's the thing to do?
    Now, if you're of the same ideology perhaps from certain 
countries in the Middle East, but coming from Western Europe 
and coming from America, more civilized and cultured 
societies--``civilized'' might not be the right words, but I 
think you know what I mean--are you looking at that? Is there a 
way for us to counter with social media saying, this is what 
you're getting into, which is a pretty tough situation?
    Director Rasmussen. That's a terrific question, Senator. 
ISIL's propaganda runs the gamut. You're absolutely right to 
point to some of these horrific videos involving executions of 
hostages or opposing fighters on the battlefield. That clearly 
sends a signal and that attracts its own element.
    But ISIL's propaganda also includes a fair number of 
messaging examples in which they paint a very bucolic, 
fulfilling life in the caliphate, that they project to 
individuals who may be disenfranchised, disadvantaged, 
dissatisfied in their home environments. So that--so the range 
of factors that grab people who end up going to a place like 
Syria right now ranges from the ideological, which you pointed 
to, but also to the psychological, catering to some sense of 
wanting to belong to something, no matter how depraved that 
thing that they would be belonging to is. Then for others there 
is just the sheer sense of adventure and a chance to throw your 
hat in with the winning side, is a part of the calculation.
    We've tried to disaggregate all of these different factors 
in the messaging that we're seeing, so that we can try to 
develop some counter-messaging strategies to go at it. The 
President is convening this CVE summit next week, drawing in 
all of our European partners, many of our Middle Eastern 
partners, to try to get a better handle on this, to try to--
unfortunately, as we all know, the government is probably not 
the best platform to try to communicate with the set of actors 
who are potentially vulnerable to this kind of propaganda and 
this kind of recruitment. That's something we deal with all the 
time.
    We try to find ways to stimulate this kind of counter-
narrative, this kind of counter-messaging, without having a USG 
hand, a U.S. Government hand, in it. People who are attracted 
to this don't go to the government for their guidance on what 
to do, not the U.S. Government and certainly not their 
governments in the Middle East. So statements from senior 
religious figures in Middle East capitals are useful, but it's 
pop culture that is going to get--in many cases the voices of 
pop culture or voices more relevant to these experiences of 
these young people is going to have a far more profound impact 
on them than anything we say.
    Senator Coats. Yes, I think so, too. We need to take the 
same advantage of social media that they've taken. And I agree, 
it shouldn't be government-directed. It ought to be coming from 
other areas of the culture reaching out to these people and 
letting them know exactly what they're getting into, which is 
not the promise that's being made during the recruitment.
    Thank you.
    Chairman Burr. Thank you, Senator Coats.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Director, I want to follow up on the issue of the 
telecommunications companies holding the data in two different 
ways. First of all, there are hundreds of telcoms in this 
country and, by contrast, very few people--the number of people 
who had access to the database in this country, as has come out 
in recent months, was strictly limited, and they were well 
trained.
    If more people have access to the database, isn't that 
likely to raise additional privacy problems and questions?
    Director Rasmussen. I'd have to understand exactly how that 
architecture is going to look. I'd ask if I could take that for 
the record, Senator.
    Senator Collins. A related question: Would you be troubled 
if there is no requirement for the telecommunications companies 
to retain the data for a certain length of time?
    Director Rasmussen. It's obviously in the interest of the 
intelligence community to try to maintain the capability to 
access that data for as long a period of time as we can. In 
terms of specific provisions to compel, I can't speak to that. 
I can only speak to the interest we have in maintaining that 
capability, which of course is to have that access.
    Senator Collins. Let me turn to the issue of home-grown 
terrorism and countering violent extremists. You said in your 
testimony today, and I completely agree, that we face a much 
greater recurring threat from lone wolves and loose networks of 
individuals, and you talked about the number of attacks since 
last May, but ten of them were from violent Islamic extremists.
    As you may have seen, former Defense Intelligence Agency 
Director Michael Flynn recently commented that he could not 
identify which agency or individual in the U.S. Government is 
in charge of the fight against radical Islamic extremists. 
Obviously, DHS, the FBI, DOD to some extent, the Department of 
State, NCTC are all important players. Who's in charge?
    Director Rasmussen. I would argue, Senator, that, as with 
most elements of our counterterrorism effort, we're approaching 
it on a whole of government effort, without a single agency 
with lead or overall responsibility. In the effort against 
home-grown violent extremists here in the United States, we 
have a very tight-knit community focused particularly among 
Homeland Security, the Justice Department, FBI, and NCTC. Along 
with the deputy directors of those organizations, I meet, Matt 
Olsen before we met, every other month at that director or 
deputy director level to synchronize and coordinate all of our 
activities aimed at dealing with the home-grown violent 
extremist phenomenon, working to make sure that we coordinate 
and partner with each other, so that when we go to a 
community--and I used Denver in my testimony as an example of a 
community we had gone to in the wake of the arrests there last 
year of the three young Somali-American women who were 
disrupted on their way to Syria--we go arm in arm, lockstep 
with each other, all four of us together, working hand in hand 
with the special agent in charge of the local FBI office, the 
U.S. attorney in that capital, and all of the Homeland Security 
elements in that city, so that we are speaking with one voice 
as a Federal Government.
    Now, when we get there we're dealing with the widest 
possible array of community leaders and community 
organizations, because most of this home-grown violent 
extremism, effort to counter home-grown violent extremism 
effort, is going to be carried out by those communities. Our 
role in many cases is to empower and provide information.
    One of the things we did in that experience in Denver was 
provide a community awareness briefing that explains exactly 
what Senator Coats was talking about: the appeal of this 
narrative, the kinds of things that their kids might be seeing 
on the Internet if they weren't supervised or if their parents 
were not involved with or engaged with what their children were 
doing.
    So I'm very comfortable that we are working well and 
harmoniously together. Could I make the case for one single 
agency being given a lead role? I don't think I could right 
now. If we had somebody--if we had a bunch of discord and 
disharmony, I might make that case, Senator. Could we do 
better? I'm not going to sign up to the idea that we couldn't 
do more and do better, and we're trying, and we're looking to 
resource this more robustly. But I don't think the problem we 
face is a result of not having a lead Federal agency.
    Senator Collins. I guess from my perspective the problem is 
if no one's in charge it's very difficult for us to assess the 
effectiveness of a program, to budget appropriately, to hold 
people accountable, to assess whether what we're doing is 
making a difference. When we did the Fort Hood investigation in 
2010, one of our major recommendations from the Homeland 
Security Committee was that there needed to be a strategy, but 
there needed to be a lead agency or person in charge.
    It's not that these efforts aren't worthwhile, but we can't 
budget for them, we can't assess them, if there isn't a person 
who can come and report to us. My concern is that the National 
Security Council appears intent on trying to exercise the role 
of policy implementer rather than just policymaker.
    Director Rasmussen. Thank you, Senator. We are all trying 
to operate the four agencies I mentioned under the rubric of 
the President's home-grown CVE strategy for here in the 
homeland. We are, though, looking at ways, in keeping with your 
suggestion, to try to come up with funding mechanisms that 
cross departmental lines so that we can do exactly what you 
describe, give some sense of the jointness, the joint work that 
is going on, without relying solely on department budgets and 
Department stovepipes.
    I'll certainly make sure we get more information to you on 
that.
    Senator Collins. Thank you.
    Chairman Burr. Senator Blunt.
    Senator Blunt. Thank you, Chairman.
    Mr. Rasmussen, let's talk about Yemen a little bit. I 
understand our embassy there is closed, most of the people we 
had there, certainly from the State Department, at the embassy 
are all out of the country; cars left with keys in them at the 
airport or whatever it took to get out of there.
    It's just been a few months ago that Yemen was supposedly a 
great example of how our efforts were working, how the plan was 
working. How do you think that changed so quickly and what, 
looking back, do you think that you and others might have seen 
to give more warning than we got of that?
    Director Rasmussen. The situation in Yemen for some period 
has been stable--unstable politically, and for a long period of 
time the Yemeni government faced this problem of a Houthi 
conflict emanating out of the northwestern part of Yemen. But 
that was not a new phenomenon and for many years the influence 
of the Houthi community there was largely contained to that 
northwestern part, corner of Yemen, along-stride the Saudi 
border.
    That changed rather dramatically when the Houthis moved out 
of that historical location they held and moved towards Sanaa. 
Much as we saw in dealing with the ISIL phenomenon, the one 
thing that's very difficult to assess from an intelligence 
perspective is the ability of a military organization to 
actively confront another insurgency. Director Clapper I know 
has talked about the challenge the intelligence community faced 
in predicting whether the Iraqi security forces would have 
melted away the way they did in the face of ISIL's advances 
last summer.
    I would say on somewhat of a smaller scale something like 
that happened in Yemen, with President Hadi, who already faced 
a complicated political environment in managing his military 
and managing his security organizations, as the Houthi advances 
toward Sanaa took place, it simply became the case that they 
were unopposed in many cases. That's something that we've got 
to try to find a better way as an intelligence community to 
understand, the willingness of fighters to fight, because when 
you match up orders of battle and read about the resources 
available to the various sides, you would look at that and say 
there's no way that might happen, but obviously it did.
    And it's left us in a position now where, on relatively 
short notice, just over the past few months the security 
situation deteriorated far more rapidly than we expected and, 
particularly because we could not assure the safety and 
security of our officers there, the decision was made to leave.
    Senator Blunt. I don't want to get into any kind of ongoing 
discussion with you about the specifics of how I'd see these 
things now. But we've got an example in ISIL or ISIS where 
they're the JV one day and they're virtually a nation-state 90 
days later, or Yemen, which is a great example of our 
successful foreign policy and six months later it appears to be 
a total disaster.
    But I think you're now--is it fair to say that the 
intelligence community has to begin to reevaluate how we--what 
you answered, reevaluate how those insurgencies may match up 
against the ability to face them?
    Director Rasmussen. I think that's fair, Senator.
    Senator Blunt. Another question I have. I noticed in the 
information the President sent up yesterday for the Congress to 
look at the focus was against ISIL or associated persons or 
forces. How would you define the second part of that? Is that 
another terrorist group who actually is somehow fighting? What 
does that mean? Is that al-Nusrah? Is that some of these al-
Qaeda groups that don't appear to be that much in line with 
ISIL? How would you define ``associated persons or forces'' if 
you were me?
    Director Rasmussen. I guess I look at it and take it pretty 
much at face value, Senator, in concluding that that language 
likely allowed for the possibility that other networks, maybe 
not even formal groupings but other networks, might align 
themselves with ISIL. As we know, right now ISIL-ISIS is in 
conflict with core al-Qaeda and with al-Nusrah Front, the 
designated al-Qaeda affiliate operating in Syria.
    Senator Blunt. So core al-Qaeda or al-Nusrah would not be 
included in that definition, because they're actually not 
associated with ISIL? I mean, that's my belief, and I think 
that's what you just said.
    Director Rasmussen. I'd have to check, but I guess what I'm 
saying is when I looked at the words ``associated forces'' I 
was thinking ahead to maybe the development of new alliances, 
new alignments, that we can't necessarily foresee today. I 
wasn't trying to suggest that anybody was today in or out of 
that particular definition, inside or outside that particular 
definition.
    Senator Blunt. I don't want to take more time than I should 
here, but today--we have to base this looking at this on what 
we do foresee today, and I think what you've said are there are 
significant terror groups that are clearly not associated with 
ISIL. Would that be right?
    Director Rasmussen. There are certainly terrorist groups 
that have not affiliated or associated at this point with ISIL. 
ISIL has reached out and developed affiliated relationships or 
endorsement-like relationships with groups outside of Iraq and 
Syria, including in North Africa, including in Algeria, and 
including in I believe Yemen as well.
    Senator Blunt. I'm out of time. Thank you, Chairman.
    Chairman Burr. Senator Lankford.
    Senator Lankford. Thank you.
    I need to ask you, on page 10 of your written report you 
use the statement here ``Iran remains the foremost state 
sponsor of terrorism,'' and then a couple of notes on that. I'd 
like to get some additional details on that. When you talk 
about Iran being the foremost state sponsor of terrorism, how 
far does that extend? How many countries are they engaged in or 
terrorist groups are they engaged in sponsoring?
    Director Rasmussen. Iranian sponsorship and association 
with particularly Lebanese Hezbollah gives--provides a global 
reach to that organization. So I could not give you a direct 
answer as to how many countries, but I would certainly argue it 
is global. It extends to pretty much every single region of the 
world.
    Senator Lankford. Can you give me some examples of places 
that we know there are clear lines, where Iran is engaged in 
terrorism and advancing that ideology or being a state sponsor?
    Director Rasmussen. Certainly in portions of West Africa, 
portions of Southeast Asia, portions of Latin America. I could 
go into more detail in a classified setting.
    Senator Lankford. It begs the question here as well, the 
foremost non-state sponsor. Are we able to identify individuals 
and groups of individuals as well that are--you identify Iran 
as the foremost state sponsor. A lot of these groups obviously 
have to get funding, support, coordination from somewhere. Are 
we able to identify some of those non-state sponsors?
    Director Rasmussen. We certainly have a robust effort 
across the intelligence community to try to understand 
particularly where individuals play a role in the financing of 
terrorist organizations, and where we can identify through 
intelligence those individuals developing an approach, using 
every tool we have, whether it's designation by the Treasury 
Department, other law enforcement or intelligence action, any 
tool we have, to try to shut down that financing pipeline.
    That is an area where it is a constant, constant struggle 
because these organizations are ubiquitous in their efforts to 
fundraise. I'd be happy to talk in closed session about the 
work the community is doing in that area.
    Senator Lankford. Thank you. Is there a sense for Iran as a 
state sponsor of terrorism? Is that on the decline? Is it 
consistent? Has it continued to increase? Have we noticed a 
significant change in Iran and their behavior in the last 
several years?
    Director Rasmussen. I guess I would describe it as 
consistent and steady. The degree of concern we face has been 
consistent and steady over time. We're particularly mindful of 
their support for militant groups in places like Iraq, where 
that front line activity, where Shia militant groups that have 
connections to Iran could be potentially threatening to our 
personnel on the ground in Iraq.
    Senator Lankford. Let me ask about one other country and 
location. Libya has fallen into total chaos, with no 
functioning government any more, and every time they form a 
government it collapses within months, and borderline, as the 
Vice Chairman mentioned earlier, near-civil war at this point. 
Terrorist groups seem to enjoy a vacuum. What do we see as on 
the rise in Libya, and what's our status there as far as 
terrorist organizations and the spread of terrorism there?
    Director Rasmussen. You're absolutely right, Senator. If I 
had to identify one of the greatest areas of emerging concern 
with respect to counterterrorism, it would be Libya. We were 
already facing the chaotic political environment there, in 
which the resident North African-based terrorist groups that 
we've talked about before--AQIM, al-Qaeda in the Islamic 
Maghreb, Ansar Al-Sharia--were already active and potentially 
threatening in Libya and with the potential ability to threaten 
U.S. interests across North Africa.
    What's changed more recently and what's made the 
environment there even more different is that ISIS-ISIL has 
looked to also take advantage of the chaos in Libya and 
establish a foothold there as well. We are still looking to try 
to assess whether that capability will manifest itself in 
external operations outside the region of North Africa or if 
the intent is simply to give themselves the capability to 
attack western interests in places like Cairo or Algiers or 
Tunis or Morocco.
    That by itself would be significant, a sufficient concern 
to warrant our attention. But we're obviously mindful of what 
they might try to do to expand into Europe as well and 
potentially threaten our interests there.
    Senator Lankford. One final question. If Iran stopped 
supporting terrorism, what effect would that have on the region 
and on our terrorist operations?
    Director Rasmussen. Well, if Iran got out of the business 
of providing state sponsorship to terrorist organizations, it 
would obviously lower our potential level of concern about the 
capabilities of some of the groups that we worry about. I don't 
necessarily know that it would look like an on-off switch, 
though. These are in some cases relationships and capabilities 
that have developed over decades and decades. So I don't know 
that that would all be unraveled and unspooled by just flipping 
a switch.
    Senator Lankford. Obviously that's not a switch that we 
have access to, but there are lots of connections there.
    Director Rasmussen. I understand. Thank you, Senator.
    Senator Lankford. Thank you. I yield back.
    Chairman Burr. Senator Rubio.
    Senator Rubio. Thank you.
    Mr. Rasmussen, just to take on what Senator Lankford said, 
I want to go a little bit deeper into Libya. Isn't it a fact 
there has now been multiple open source reports in the media 
that Darnah in Libya has emerged as a central and important and 
growing hub for ISIS; is that not right?
    Director Rasmussen. I think that's right, yes, sir.
    Senator Rubio. And in addition, they've now been linked to 
many of the groups now in Benghazi. In essence, there are now 
open source reports that ISIS is the predominant group in 
Benghazi.
    Director Rasmussen. That's correct.
    Senator Rubio. And there has also been open source 
reporting that ISIS was behind a terrorist attack at a hotel in 
Tripoli that killed an American citizen.
    Director Rasmussen. Yes, the Corinthia Hotel.
    Senator Rubio. And in addition, there was open source 
reporting this week that ISIS--an ISIS commander was killed in 
Afghanistan.
    Director Rasmussen. Yes.
    Senator Rubio. So there is now an ISIS presence as well in 
Afghanistan, including open source reports of terrorist 
training camps being set up in portions of Afghanistan.
    Director Rasmussen. That's correct. We've seen in recent 
months ISIS-ISIL has looked to expand its reach into a number 
of different places around the world, and you've highlighted 
two of the most recent examples in Afghanistan and Libya. I 
would also highlight, though, Algeria and Egypt as other places 
where that has happened.
    Senator Rubio. Well, let me just point out on the Libya 
front, Darnah is a port city, is it not, a port region, where 
they now have--which is a perfect--and there's no--there's no 
Assad bombing them there. There's no air strikes. My concern is 
that that's becoming one of their most important hubs, because 
it's completely uncontested. They have access to shipments and 
foreign fighters to take in.
    I just think that's an area of growing emergence and I'm 
surprised there's not more discussion about it because of how 
serious a threat that poses, including to the Sinai. Would it 
not be a great spot from which to launch attacks into the Sinai 
or get ISIL groups involved in the Sinai Peninsula?
    Director Rasmussen. That's exactly right. Again, the Ansar 
Bayt al-Maqdis, which is the Egyptian-based terrorist group 
that recently affiliated with ISIS, we worry about the threat 
they would pose to western interests in Egypt and the Sinai--
tourists, American businesses, but also our troop presence.
    Senator Rubio. It would be a mistake in your opinion to 
simply focus on our fight against ISIS as simply being Syria 
and Iraq? This group is increasing its footprint and presence 
in multiple stages now, including Afghanistan, throughout North 
Africa, and in particular Libya.
    Director Rasmussen. That's correct, they've certainly 
expanded their reach.
    Senator Rubio. I want to ask you about Guantanamo. Prior to 
President Obama's executive order to determine the disposition 
of Guantanamo detainees, 101 former detainees were confirmed to 
have reengaged in terror. Then in the latest report that we got 
in July 2014 it stated that from 2009 to July of 2014 88 
detainees transferred out of Gitmo. Out of the 88 detainees 
transferred out of Gitmo, 6 of them had been confirmed to 
return to terror activity, and one additional one was 
suspected.
    So by my calculation, that means 107 of the 620 total 
detainees transferred from Gitmo have reengaged in terror and 
another 77 are suspected of doing so, in addition to the 107.
    So can you tell us, since July of 2014 when that report 
came out, how many more have returned in our estimation to 
terror?
    Director Rasmussen. We are just on the cusp within the next 
couple of weeks of providing the next iterated version of that 
unclassified report, the one you received last July. So those 
numbers will be out very, very shortly.
    Senator Rubio. But as it stands now, one out of six of 
those that have been returned----
    Director Rasmussen. What I wanted to say is, while we don't 
have that report finalized yet, what I expect is that the trend 
line--the proportions will be roughly in line with what we 
reported last July as well.
    Senator Rubio. As it stands right now before the report 
comes out, it looks like it's approximately close to one out of 
six individuals released from Guantanamo have reengaged in 
terrorism, maybe more.
    Director Rasmussen. As a net figure, that's correct. But 
the population released since 2009, that number is a lower 
number.
    Senator Rubio. Okay. Lastly, on the question of Iran, I 
want to return back to kind of the threat that Senator Lankford 
was pursuing. We know that Iran uses its proxy relationship 
with Hezbollah, for example, and we also are aware now that the 
Shia militias that are in Iraq as we speak are heavily indebted 
and controlled by them as well. Do we have any evidence that 
you can discuss here of Iran trying to set up similar type 
groups in places like Kuwait, Saudi Arabia, Bahrain, Jordan?
    Director Rasmussen. I'd have to address that in a closed 
session, Senator.
    Senator Rubio. Okay. Thank you.
    Director Rasmussen. We'd be happy to provide you that 
answer. I wouldn't wait for a closed session. We'll provide you 
that answer through the Committee staff.
    Senator Rubio. Thank you.
    Chairman Burr. Thank you, Senator Rubio.
    Nick, somebody stops you on the street. They know you're 
the Director of NCTC and they say: Mr. Director, what does NCTC 
do, and why should I care? What would your answer be?
    Director Rasmussen. I would tell that person that NCTC 
strives every day to be a center of gravity for our Nation's 
counterterrorism efforts, not the center of gravity because to 
say that would be a disservice to all of our partners that do 
counterterrorism work as well, but a center of gravity that 
provides information, analysis, strategic planning in support 
of our national counterterrorism efforts.
    So if they asked I'd say that they have a large number of 
officers who come to work every day to assess, analyze, and 
provide information aimed at defeating our terrorist 
adversaries. That's what I'd say.
    Chairman Burr. And why should I care?
    Director Rasmussen. You should care because, as we talked 
about in my opening statement and in your opening statement, 
Mr. Chairman, the threat environment we face, we face right 
now, is the most multifaceted, diverse, dynamic threat 
environment we've ever faced and could manifest itself in 
communities all around this country. It's not simply a threat 
that manifests itself in far-flung places around the world.
    The kinds of low-level, potentially small-scale attacks I 
talked about from ISIL-inspired or other terrorist group-
inspired individuals are the kinds of attacks that could 
literally happen in any of our 50 states.
    Chairman Burr. In part this hearing was because you said to 
me when we first met: You know, I believe America needs to know 
something about what we do, and the intelligence community 
can't be this black hole forever. I just want to thank you for 
what your organization does, for all the employees, because 
when you hear the intelligence community described it's not 
NCTC first, but everybody who's in the intelligence community 
is a customer of yours. They look to the analytic product that 
your folks produce. We look to the analytical product that you 
produce from the standpoint of being policymakers. They look at 
it more from a standpoint of actionable information.
    I think you've got some of the most talented folks working 
for you that you possibly could, but I do want to reiterate 
something. If for some reason you feel that there are 
constraints that don't allow you to build out your workforce to 
the degree we have authorized and to the degree I think we both 
agree you need, I hope you will share that with the Vice 
Chairman and myself so that we can help to try to remediate 
that.
    Director Rasmussen. I will certainly do that. Again, I'm 
enormously grateful to both you, Mr. Chairman, and the Vice 
Chairman for your sustained support of our workforce over time. 
I think one of the biggest contributions the Congress could 
make to that end would be to not put us in a position where 
we're dealing with a sequestration environment going into the 
future, because obviously that impacts all Federal agencies and 
their budgets and their ability to operate. But our 
organization in particular, where we were so reliant on 
detailed personnel from other organizations, that kind of a 
budget approach has a ripple effect because it reduces the 
ability of other organizations to do the hiring and developing 
of personnel that we need to fill our ranks. So it ends up 
having a double whammy effect on an organization like NCTC when 
there's an uncertain budget environment that affects our 
partners the way that does.
    Chairman Burr. I thank you, Mr. Director.
    I would turn to the Vice Chairman if she had any follow-up 
questions that she might want to ask.
    Vice Chairman Feinstein. I would like to put a paper in the 
record if I might, since Senator Rubio mentioned the recidivism 
rates of former Gitmo detainees. And I'd like to put--the 
problem is really that, whether it's Bush or Obama, people 
learned more, the recidivism rates changed dramatically.
    Pre-January of 2009, the recidivism rate was 101 of 532. 
That's 19 percent. Now, since the Obama Administration it's 6 
out of 88. That's 6.2 percent. So you have to look at it in 
versions of time. I'd like to put this paper in the record if I 
may, Mr. Chairman----
    Chairman Burr. Without objection.
    Vice Chairman Feinstein [continuing]. So everybody could 
see it.
    [The material referred to follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Vice Chairman Feinstein. I have one other question to ask 
the Director. Director, days before the public release of our 
report on CIA detention and interrogation, we received an 
intelligence assessment predicting violence throughout the 
world and significant damage to sanctions relationships. NCTC 
participated in that assessment. Do you believe that assessment 
proved correct?
    Director Rasmussen. I can speak particularly to the threat 
portion of that rather than the partnership aspect of that, 
because I would say that's the part NCTC would have the most 
direct purchase on. I can't say that I can disaggregate the 
level of terrorism and violence we've seen in the period since 
the report was issued, disaggregate that level from what we 
might have seen otherwise, because, as you know, the turmoil 
roiling that part--those parts of the world, not that part of 
the world but those parts of the world, the Middle East, 
Africa, South Asia, there's a number of factors that are going 
into creating the difficult threat environment we face.
    So the assessment we made at the time as a community was 
that this would increase or add to the threat picture in those 
places. I don't know, looking backwards now, that we can say, 
aha, it did by X percent or it didn't by X percent.
    We were also, I think, clear in saying that there's parts 
of the impact that we would not know until we had the benefit 
of time to see how it would play out in different locations 
around the world.
    Vice Chairman Feinstein. Oh, boy, do I disagree with you. 
But that's what makes this arena, I guess. The fact in my mind 
was the threat assessment was not correct.
    Thank you very much, Mr. Chairman.
    Chairman Burr. Thank you, Vice Chairman.
    Senator Blunt.
    Senator Blunt. Thank you, Chairman.
    Let me go back to where I was when I ran out of time 
earlier, Mr. Rasmussen, on just trying to in my mind figure out 
where the AUMF that's proposed and how it relates to these 
various terror groups. I think the further language on 
``associated persons or forces'' it says means ``individuals 
and organizations fighting for, on behalf of, or alongside ISIL 
or any closely related successor entity in hostilities against 
the United States or its coalition partners.''
    List for me just a few of the terrorist groups that would 
not be associated in that way with ISIL? You mentioned two 
earlier. Are there others that immediately come to mind? I'm 
not asking you for an exhaustive list, by the way.
    Director Rasmussen. I don't think Lebanese Hezbollah, for 
example, would qualify as an associated force. Terrorist groups 
we see operating in Latin America I don't believe would qualify 
under that definition of ``associated force,'' or some of the 
al-Qaeda-affiliated groups operating in Southeast Asia, for 
example. Those are just some examples off the top of my head.
    Senator Blunt. So if we just take that definition, does 
that mean ISIL and its associated groups are the only people 
we've authorized the President to go and do whatever is 
necessary within the restrictions of that? Or does the 2001 
AUMF give the President authority to go after other terrorist 
groups?
    Director Rasmussen. I'd have to get you an answer on that, 
sir, because I'm just not confident that I know enough about 
the design of AUMF, of the new authorization of force----
    Senator Blunt. How about the old one? You surely, as the 
Director of the National Counterterrorism Center, you surely 
know about the 2001----
    Director Rasmussen. Right.
    Senator Blunt [continuing]. What authorization that gives 
us.
    Director Rasmussen. That allowed us to carry out operations 
against al-Qaeda and associated forces. So I'm sorry; could you 
refresh me?
    Senator Blunt. No, that's the one. I think that's right, 
though I think it also said ``or future terrorism against the 
United States.'' And that's the one that the President proposes 
we let stand and we eliminate the 2002 that's more Iraq-
specific and then add this one to it, is I believe the 
proposal.
    But what I guess I'm thinking is, what do we really add by 
adding this complicated definition of terrorists that associate 
with ISIL when--is ISIL covered under the 2001 AUMF?
    Director Rasmussen. I would defer to my lawyer friends, but 
I believe not.
    Senator Blunt. You believe not. So how are we engaging with 
ISIL now in Syria?
    Director Rasmussen. Let me provide you with an answer for 
the record, sir, because I want to be precise and correct in 
what I provide you.
    As the Administration has stated, we believe that the 2001 
AUMF provides legal authority to use military force against 
ISIL in both Iraq and Syria.
    Senator Blunt. All right. Do you have any follow-up on--do 
you understand the question----
    Director Rasmussen. Yes.
    Senator Blunt [continuing]. I assume we might be able to 
pursue ISIL or ISIS in Iraq through the 2002. If the 2001 is--I 
guess my point, Mr. Chairman, if the 2001 is broad enough to 
cover ISIL now, I don't know what we add to it when we add 
another authorization and leave that one on the books. But I 
think we do lead to significant complication here of who's a 
closely related associate of ISIL when we begin to define this.
    These groups--like core al-Qaeda is generally not anywhere 
what it was at one time, but various renamed or affiliated 
groups have sprung up everywhere from the Philippines to all 
over the world. I'm going to be very interested in how we 
define and why we would specifically begin to define individual 
groups, as opposed to--and how broad the 2001 authorization 
was, which is I guess the beginning of that question, Mr. 
Rasmussen.
    So thank you. I look forward to your response on that.
    Thank you, Chairman.
    Chairman Burr. Thank you, Senator Blunt. I think it gets 
even more confusing when in the same geographical battle space 
it would be the 2001 AUMF that provides us the ability to go 
after Khorasan, but next door in the same geographical area it 
would take a new AUMF to actually go after ISIL.
    Senator King, we're glad you could join us.
    Senator King. Thank you. I appreciate that. We just 
completed a markup in the Armed Services Committee. Senator 
McCain acted with some dispatch.
    Hopefully, I won't confuse this discussion further, but I 
think it's important to talk about this 2001 AUMF. Actually, 
the term ``associated forces'' doesn't appear anywhere in it. 
That's a gloss upon a gloss. The 2001 AUMF is very clear the 
President can use necessary and appropriate force against 
``those nations, organizations, or persons he determines 
planned, authorized, committed, or aided the terrorist attacks 
that occurred on September 11th or harbored such organizations 
or persons, in order to prevent any future acts of 
international terrorism.''
    That has been used very, very broadly, and I think that's 
one of the concerns. I think the President has realized that to 
stretch it into attacking an organization that didn't even 
exist in 2001, operating in a country that was at least 
partially stable in 2001, is quite a stretch. I think that's 
why we've got the new authorization that's been brought forward 
to cover the ISIL situation.
    So I think that's a matter for the Foreign Relations 
Committee. But the 2001 has been stretched very far, and I'm 
frankly one who's glad to see that the President has brought 
forward a new authorization.
    Mr. Rasmussen, a couple of questions. Counterterrorism we 
always think of in terms of killing people, striking, 
intercepting communications, drones, all of that kind of thing. 
And yet we're now learning that what we--part of what we have 
to do is intervene before people get radicalized. And yet when 
you raise that the FBI says, well, we're not social workers; 
the county sheriffs say, we're not social workers.
    If it isn't going to be law enforcement that does that kind 
of intervention, and through the social media, for example, 
who's going to do it? And do you see that as part of the 
counterterrorism mission?
    Director Rasmussen. Certainly the effort to counter violent 
extremism and, especially, most particularly here in the 
homeland, is part of the counterterrorism mission. And I would 
argue that our law enforcement partners like FBI do embrace 
that mission, even if some individuals may have said exactly 
what you said, Senator King.
    Earlier in the discussion we talked about some of the work 
that NCTC is doing along with FBI, Homeland Security, and the 
Justice Department to try to do exactly what you just 
described. From the Federal Government, the effort, though, is 
to enable and empower local communities to carry out this kind 
of intervention in their own communities, and to enable them to 
do that in a way that does not scream a law enforcement 
context, because, as you know, that can have a chilling effect 
on the kind of community engagement and community dialogue that 
would help you get at the underlying causes that lead to 
violent extremism.
    So the role we've taken from the Federal Government has 
been a little bit more circumscribed, aimed at providing 
communities with the tools to do this kind of work, information 
so they understand how terrorists, and now particularly these 
days ISIL, is using social media to go after their children in 
their communities, to let parents and teachers and schools and 
other authority figures understand what is coming at them and 
where intervention might be necessary to prevent a foreign 
fighter from developing.
    What we're doing in this area is useful and important, but 
it is thus far not scalable or scaled on a size that I would 
say has the impact we want all across the country. At the 
President's Countering Violent Extremism Summit during part of 
next week, three pilots cities--Los Angeles, Minneapolis, and 
Boston--will report to the group on their efforts in this area. 
Those are three tremendously important cities that the Federal 
Government has been working very closely with to try to do this 
kind of work.
    But those are only three cities, and so the purpose of a 
pilot is to demonstrate whether this can be done on a scale 
that will have impact far beyond just those three cities.
    Senator King. I take it that you're concurring that this 
kind of effort has got to be part of the overall counterterror 
strategy?
    Director Rasmussen. Absolutely. And in particular as part 
of the counter-ISIL strategy, we're trying to do this work both 
at home, but also abroad, because, as you well know, Senator, 
most of that foreign fighter population that we're potentially 
worried about emanates from countries other than the United 
States. So we need to help other countries be more effective at 
this.
    I don't want to sound condescending. We need to also learn. 
I shouldn't say they need to do it the way we do. We need to 
learn from them. In many cases some of our European partners 
are doing tremendous work on a community engagement level to 
try to counter the work--counter the spread of violent 
extremism in their communities. I think that's going to be one 
of the other sidebars at next week's CVE summit, is to get some 
of the lessons learned out of our partners on that.
    Senator King. I understand the United Kingdom has developed 
a program for dealing with this problem in prisons, which is 
where a lot of radicalization takes place.
    Director Rasmussen. That's certainly true. The Paris 
example kind of brought home just how dangerous a radicalizing 
environment prisons can be. I know our Department of Justice 
has engaged on that issue, along with the Bureau of Prisons, in 
an effort to make sure that we've got that identified and, 
where possible, under control here. But I'd have to get you 
more detail on that.
    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator King, thank you. Thank you for your 
willingness to spend an hour and a half with Senator McCain and 
still come to this hearing.
    Senator King. I'm a patriot, Mr. Chairman.
    Chairman Burr. You'll be rewarded in heaven, I can assure 
you.
    [Laughter.]
    Director, thank you so much for being here today, for 
sharing your insight with us, and please carry back to your 
employees how grateful we are for the great work that the 
employees at NCTC do.
    Director Rasmussen. I will certainly do that, Senator. 
Thank you for having me.
    Chairman Burr. The hearing is adjourned.
    [Whereupon, at 4:02 p.m., the hearing was adjourned.]
  

                                  <all>
</pre></body></html>
